TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Needs to
                     Emphasize Limited Use of a Collection
                       Suspension Code That Can Allow
                             Inappropriate Refunds



                                        February 26, 2008

                              Reference Number: 2008-30-060




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure(s)
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  February 26, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – The Internal Revenue Service Needs to
                                  Emphasize Limited Use of a Collection Suspension Code That Can
                                  Allow Inappropriate Refunds (Audit # 200630035)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) use of a
 collection suspension code that can allow inappropriate refunds.
                                                                                       1,3(d)


 The overall objective of this review was to determine the extent and effect of this potential
 internal control weakness.

 Impact on the Taxpayer
 Issuing refunds to taxpayers who still owe taxes for other tax years ultimately delays the
 collection of the taxes owed. As accounts in the IRS inventory of accounts receivable get older,
 the likelihood of them being collected decreases, and the nation’s tax gap increases.1

 Synopsis
 The IRS’ inventory of accounts receivable can include a significant number of taxpayer accounts
 in which specific tax years are suspended from active collection activity for many different
 reasons. For example, active collection action may be suspended if a taxpayer files a claim to
 adjust his or her taxes and/or locate payments on a balance-due account. Generally, when this




 1
     Defined as the difference between what is paid in taxes and what should be paid according to the tax laws.
                          The Internal Revenue Service Needs to Emphasize
                     Limited Use of a Co//ectionSuspension Code That Can Allow
                                        Inappropriate Refunds



occurs, specific transaction codes2(suspension codes) are used to temporarily suspend collection




Recommendation
We recommended the Commissioner, Small Business!Self-Employed Division, reemphasize the
importance of selecting the proper collection suspension code and add to the Internal Revenue
Manual cautions that advise employees of the potential for issuance of inappropriate refinds




IRS management agreed with the recommendation. The Director, Campus Compliance Services,
Small Business/Self-EmployedDivision, will issue a Senricewide Electronic Research Program
alert to campus4personnel reemphasizing the importance of selectingthe appropriate collection
suspension code. The Director, Collection, Small Business!Self-Employed Division, and the

' These codes are used to identify transactions being processed and to maintain a history of actions posted to
                      The Internal Revenue Service Needs to Emphasize
                 Limited Use of a Collection Suspension Code That Can Allow
                                    Inappropriate Refunds


Director, Examination, Small Business/Self-Employed Division, will issue a memorandum to
field personnel to reemphasize this issue. The Director, Campus Compliance Services, the
Director, Collection, and the Director, Examination, will review and revise the Internal Revenue
Manual to advise employees of the potential for issuance of inappropriate refunds when the
incorrect transaction and closing codes are used. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                               3
                             The Internal Revenue Service Needs to Emphasize
                        Limited Use of a Collection Suspension Code That Can Allow
                                           Inappropriate Refunds




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          Use of a Transaction Code That Suspends Collection Actions and
          Prevents Offsetting Credits to an Account Should Be Limited ......................Page 2
                    Recommendation 1:..........................................................Page 3


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 6
          Appendix III – Report Distribution List .........................................................Page 7
          Appendix IV – Management’s Response to the Draft Report ........................Page 8
             The Internal Revenue Service Needs to Emphasize
        Limited Use of a Collection Suspension Code That Can Allow
                           Inappropriate Refunds




                      Abbreviations

IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
       .,.....* .,

                               The /ntemal Revenue Servr'ce Needs to Emphasize
                     i.   Limited Use of a C~llectionSuspension Code That Can Allow
                                            /nappropnate Refunds




                                              Background

The Internal Revenue Service's (IRS) inventory of accounts receivable can include a significant
number of taxpayer accounts in which specific tax years are suspended from active collection
activity for many different reasons. For example, active collection action may be suspended ifa
taxpayer files a claim to adjust his or her taxes and/or locate payments on a balance-due account.
Generally, when this occurs, specific transaction codes' (suspension codes) are used to
temporarily suspend collection activity while the IRS conducts research and takes necessary
actions. Although active collection action is suspended, credits from a taxpayer's other tax years
are generally not refbnded but are used to offset all or part of what the taxpayer owes in the
suspended tax year.




As a result, we initiated this audit to determine the extent of the potential problem with use of
this collection transaction code. Our review was performed at the IRS office in
Holtsville, New York, during the period February through September 2007 and included
analyses of taxpayer accounts nationwide. We discussed policy and procedures with IRS
personnel from the Small Business!Self-Employed Division Compliance and Collection
fbnctions at the Compliance Center in Holtsville, New York. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conc1usions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in
Appendix 11.


  These codes are used to identify transactions being processed and to maintain a history of actions posted to
taxpayers' accounts.
12te)S(d)
    . ........
    ,,




                       The /ntema/ Revenue Service Needs to Emphasze
                  Limited Use of a Co//ection Suspension Code That Can A//ow
                                    /nappropriate Refunds




                                 Resu/ts of Review


Use of a Transaction Code That Suspends Collection Actions and
Prevents Offsetting Credits to an Account Should Be Limited

                                - - to be widespread, we believe the specific collection
While the problem does not appear
suspension coder ,3(q                                                         1 is not always used
correctly, which has resulted in refunds being sent to other taxpayers when they still owed taxes
for other tax years. While the instances of refunds sent to ta@ayers were few,there is the
potential for more r e h d s to be sent to taxpayers who still owe taxes.

As previously mentioned, when the IRS processes a taxpayer claim to adjust taxes andor locate
payments on a balance-due account, specific transaction codes (suspension codes) are generalIy
used to temporarily suspend collection activity while the IRS conducts research and takes
necessary actions. Although active collection action is suspended, credits from a taxpayer's
other tax years are generally ailo\ved to offset ail or part of what the taxpayer owes in the
suspended tax year.

For this specific collection suspension code, however, credits are not allowed to offset what the
taxpayer owes in the suspended tax year. This code is supposed to be used only when it is
expected that an adjustment is necessary that will filly pay the tax for the suspended tax year.
For example, if an IRS tax collector discovers an obvious error created a balance-due condition
in one tax year, and an adjustment will reduce the balance due to zero, the tax collector can
request the necessary tax adjustment and also request this collection suspension code be entered
for the specific tax year. This will ensure collection action is suspended while the adjustment is
made and overpayments for other tax years will not be used to pay the questioned tax.

If, however, the suspension code is used incorrectly when adjustments may not be appropriate or
when an adjustment does not eliminate the balance due, credits from a taxpayer's other tax years
will refind rather than be used to pay the amount still owed for the suspended tax period.

Our research of IRS data showed 3,930 taxpayer accounts with balances due contained this code,
and the taxpayers owed a total of $96.2 million. We reviewed a statistically valid sample of
187 of these taxpayer accounts. Because the collection suspension code can be applied more
than once to more than 1 tax year, the sample contained 232 uses of the code on the 187 taxpayer
accounts.

                                                                                            Page 2
     ... .......

                             The /ntema/ Revenue Service Needs to Emphasize
                        Limited Use of a Cu//ectiun Suspension Code That Can A//ow
                                          /nappropmate Refunds



The suspension code was used inappropriately in 69 of the 232 suspension code ~ansactions.'
For 3 I (45 percent) ofthe 69 cases, we could find no evidence of any adjustment activity up to
the time of our review. The periods of apparent adjustment inactivity averaged 32 weeks. The
other 38 of 69 cases contained a variety of indicators that the suspension code was not warranted,
such as taxpayer requests for installment agreements and/or offers in compromise.'
In an additional I37 cases, we determined that use of the suspension code was questionable.
Although the suspension code should be used only when it is expected that an adjustment will
resolve the entire liability for a particular tax year, we found in these 137 cases the taxpayers still
owed a total of about $470,000 at the time of our review. In ow sample, we also found the IRS
released 8 rehnds totaling $14,185 to taxpayers who still had unresolved balances due. In each
case, the pending claim did not reduce the outstanding liability in the suspended tax year to zero.
IRS employees may not always be aware ofthe consequences of incorrectly using aP(")I
 (el                               I Many IRS hnctions use this Transaction Code in their work;
however, except in a few instances, the Internal Revenue Manual does not specify the
consequences of using the code. Because this collection suspension code can prevent a
taxpayer's credits from paying liabilities, more cautions are needed to ensure it is used only
when necessary.
Although we did not find many instances of r e h




Recommendation
Recommendatfon f : The Commissioner, Small Business!Self-Employed Division, should
reemphasize the importance of selecting the proper collection suspension code and add to the
Internal Revenue Manuai cautions that advise employees, who either enter the code or re uest
entry of the code, of the potential for issuance of inappropriate rehnds when
(el                               1 is used.
               Manaaement's Ressonse: IRS management agreed with this recommendation. The
               Director, Campus Compliance Services, Small Business!Self-Employed Division, -will


'We based our determinations on the information contained in tax records on the IRS' databases.
  This is an agreement between a taxpayer and the Federal Government that settles a tax liability for payment of less
than the full amount owed
                                                                                                             Pag 3
               The Internal Revenue Service Needs to Emphasize
          Limited Use of a Collection Suspension Code That Can Allow
                             Inappropriate Refunds



issue a Servicewide Electronic Research Program alert to reemphasize the importance
of selecting the appropriate collection suspension code. The Director, Collection,
Small Business/Self-Employed Division, and the Director, Examination, Small
Business/Self-Employed Division, will issue a memorandum to field personnel to
reemphasize this issue. In addition, the Director, Campus Compliance Services, the
Director, Collection, and the Director, Examination, will review and revise the Internal
Revenue Manual to advise employees of the potential for issuance of inappropriate
refunds when the incorrect transaction and closing codes are used.




                                                                                    Page 4
     .....,.....

                                  The /nfemal Revenue Service Needs to Emphasize
                             Limited Use of a Collection Suspension C d e That Can Allow
                                               fn;4ppropnnateRefunds



                                                                                                    Appendix I

                    Detailed Objective, Scope, and Methodo/ogy

The objective of this audit was to determine the extent and effect of a potential internal control
weakness             r '"                            b o accomplish our objective, we:
I.                 Determined the extent and effect of the control weakness invohing use of-
                    (e)                               I~vhichdenotes a taxpayer who has a pending adjustment
                   that will filly pay the tax year balance.
                   A. Extracted dl Individual blaster File' taxpayer accounts with balances due for Tax
                      Years 2002 through 2005 using the files in the TIGTA Data Center Warehouse.? We
                      then extracted thoie with a bagnce due in excess of $ 1,0003and a            m
                      I~I                              1on the account. We identified 3,930 taxpayer
                      accounts.
                   B. Selected a statistically valid sample of 187 of the taxpayer accounts identified in
                      Step I.A. These 187 taxpayer accounts included 232 specific tax years containing a
                      (a)                                            I  Our sample was based on a 95 percent
                      confidence level, a projected 50 percent error rate, and a precision of +!- 7 percent.
                   C . Reviewed the taxpayer accounts to determine whether use of these Codes together
                       appeared justified, based on any adjustment or other activity in the accounts. We
                       determined whether any refunds were issued inappropriately during the time the
                       accounts were suspended.
                       I. Researched the Integrated Data Retrieval System4and requested returns, if
                          appropriate, to determine the extent of the internal control weakness. We
                          determined the causes for the problem identified.
                      2. Determined, where possible, the amount of taxes due that should have been
                         available for collection activity but remained in suspended status. We also
                         determined any other efTects ofthe problem cases and the impact or potential
                         impact of the internal control weakness identified.


  The IRS database that maintains transactions or records of individual tax accounts.
? The TlGTA Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
5
  This is not an IRS tolerance level. The dollar amount was chosen for this audit because it is a significant amount.
' The IRS computer system capable of retrieving or updating stored information; it m r k s in conjunction with a
taxpayer's account records.
                                                                                                              Page 5
                      The Internal Revenue Service Needs to Emphasize
                 Limited Use of a Collection Suspension Code That Can Allow
                                    Inappropriate Refunds



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Bernard F. Kelly, Audit Manager
Carol Gerkens, Lead Auditor
John J. Chiappino, Senior Auditor
Margaret F. Filippelli, Senior Auditor




                                                                                       Page 6
                     The Internal Revenue Service Needs to Emphasize
                Limited Use of a Collection Suspension Code That Can Allow
                                   Inappropriate Refunds



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 7
         The Internal Revenue Service Needs to Emphasize
    Limited Use of a Collection Suspension Code That Can Allow
                       Inappropriate Refunds



                                                   Appendix IV

Management’s Response to the Draft Report




                                                           Page 8
..........

                        The Internal Revenue Service Need's to Emphasize
                   Limited Use of a Co//ection Suspension Code That Can Allow
                                      Inappropnbte Refunds




                                                                                       Attachment                             ..


             RECOMMENDATION 1:
             The Commissioner, Small BusinesdSeH-Employed Dlvlslon, should reemphasize the
             importanceof selecting the p-r      collection suspension code and add to the Internal
             Revenue Manual cautions that advise employees, who either enter the code or
             request entry of the code. of the potential for issuance of inappropriate refunds when
                                                            Ils used.
             CORRECTIVE ACTIONS:
             1) SBlSE will issue a memorandum to field personnel to reemphasize the
                 Importanceof selecting the apprapriate collection suspension code.
             2) SBlSE will review and revise the IRM to advise employees of the potential for                                     ,         .
                 Issuance of inappropriate refunds when the incorred rans sac ti on and Closing                                                       ..
                 Codes are used.                                                                                      .               .
             3) ,A Sewicewide Etectronic Research Program (SERP) alert will be issued l o
                 reemphasizethe importance of selecting the appropriate collection . suspension
                                                                                       .
                                                                                    ..   ..
                 code.

             IMPLEMENTATIONDATES:                                               ....
             1) SBlSE memorandum: April 15,2008                                                                                            . .
             2) SBlSE IRM review for appropriate updates: June 15,2008                                                                              ...
             3) SERP alert: April 15,2008
                                                                                              .       .
                                                                                                          .                   .
             RESPONSIBLEOFFICIALS:
             1) SBlSE memorandum:                                                                 .           .               .
                    Director, Colection. Small BusineasJSelf-Employed Division, and
                    Director, Examination, Small Buslness/SeW-Employed Dlvlslon
             2) SBlSE Internal Revenue Manual review for appropriale updates:                                     ,               .             .
                    Director. Colleclion. Small BusinesstSelf-Employed Division;                                          .       .
                ' * Director, Campus Compliance Services, Small BusinesslSelf-Employed                                ,               .
                    Dlvlslon;
                    Director, Examination, Small BusinesslSetf-Employed Division                      .                       ..
             3) SERP alert:
               ,                                                                                                                          . . . .
                    Dlredor, Campus Compliance SeNlces, Srnall BusinessfSelf-Employed
                    Division
                                                                                                                                  .........
             CORRECTIVE ACTIONIS1MONlTORlNQ P1 AN;
             1) The Director, Collection, SBISE, will a d v k the SBtSE Commissioner of any
                 delays in implementingthis corrective action.                                  . . . . .
             2) The Dlredors, Collection, Campus Compliance S e ~ c e sand, Examination,
                 SBISE, wlll advise the SBEE Commirrionsr d any d a y s in implementing this
                                                                                            ..............
                 corrective action.
             3) .The Director. Campus Compliance Services, SBISE, will advise the SBlSE
                 Commissioner of any delays in implementing this corrective action.
               .........................................................................................




                                                                                                                                                    Page 9
